                                   NATIONAL SCIENCE FOUNDATION
                                          4201 Wilson Boulevard
                                        ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL



MEMORANDUM

Date:             March 22, 2010

To:               Mary Santonastasso, Director, Division of Institution and Award Support
                  (BFA/DIAS)

                  Karen Tiplady, Director, Division of Grants and Agreements (BFA/DGA)

From:             Michael Kuklok /s/
                  Senior Audit Manager

Subject:          Follow-up Audit of Caltech Implementation of Payroll Distribution System
                  Report Recommendations, OIG 10-1-009


        This letter report provides the result of our audit of corrective actions taken by the
California Institute of Technology (Caltech) to implement recommendations from the March
2007 OIG NSF audit report of the Payroll Distribution System (OIG 07-01-013). 1 The review
disclosed that Caltech has fully implemented all seven audit report recommendations.
Specifically, the University has revised and/or issued new policies and procedures to ensure that
salary charges to federally sponsored projects are fully compliant with OMB and NSF
requirements. Appropriate training has been provided to grants management personnel to ensure
a full understanding of the new processes to ensure University compliance.

        As a result of the prior OIG audit report, Caltech has established a new robust system for
reporting and tracking faculty effort commitments on federally sponsored projects. The
new Policy Regarding Faculty Effort in Federally Sponsored Awards was issued by the Provost
to all Caltech faculty members and required the implementation of the new process for all grant
proposals starting on April 1, 2008. The new Faculty Effort Policy provides comprehensive
guidance for appropriately identifying both direct and cost-shared Principal Investigator (PI)
effort commitments pledged on federal grant proposals. Most importantly, a new PI Effort
Commitment Module has been established in Caltech’s grants cost accounting system to track
and report PI effort commitments once the federal award is received. The new Module also
requires companion cost-sharing accounts be established for tracking any mandatory or
voluntary cost-shared PI effort commitments by each federal grant. Such formal companion

1
    The follow-up audit was performed pursuant to a Caltech invitation.
accounts will result in improved Caltech controls compared to its prior manual subsidiary system
for tracking cost sharing requirements under federal awards.

        Our follow-up sample of NSF grants disclosed that Caltech’s new Faculty Effort
Commitment System was essentially operating in compliance with its newly established policies
and procedures. The Faculty Commitment Balance Report provides key data that allows for
post-award monitoring to ensure that PIs fulfill both their direct and cost-shared commitments on
federally sponsored projects. Since the new Faculty Effort Policy was only effective for
proposals processed after April 1, 2008, Caltech has only recently started to use the system for
post-award monitoring of PI committed effort. Caltech officials stated that desk procedures will
be developed to document the process for entering the required PI information into the Effort
Commitment Module, running exception reports to ensure all data was properly entered, and
performing quarterly post-award monitoring activities.

         Further, the follow-up disclosed that Caltech has revised its policies and procedures to
improve (i) the timeliness of payroll distribution confirmations (PDC) and (ii) controls over labor
cost transfers. Increased management emphasis on the importance of timely payroll distribution
certifications has significantly reduced the delinquency rate from 25 percent during our prior
audit to an average of five percent during the past two years. Additionally, Caltech has revised
its cost transfer policies to require increased levels of review and approval for cost transfers from
overspent federal awards to other federal grants. A new system has also been established to
track all cost transfers requiring such additional approval and a key grants accounting official has
been tasked with the responsibility for ensuring that justifications are reasonable and proper
Academic Division Chair approval has been obtained. A review of a sample of labor cost
transfers to NSF awards from other overspent federal grants disclosed compliance with Caltech’s
revised procedures.

        Caltech also modified its PDC policy to assign responsibility to its Internal Audit office
for the required OMB Circular-21 independent evaluation of the effort reporting system. Internal
Audit Staff stated that payroll distribution and effort reporting will always be considered a high
risk area when developing its annual audit plan. Further, officials stated that each year, the
office typically performs an audit of grants management in one of the Academic Divisions. The
audit process includes a review of the PDC reports and interviews with employees to validate the
reasonableness of the reported labor distribution on federal grants.

        Lastly, Caltech stated that it has provided training to all campus grants management
personnel on the proper completion of the Current and Pending Support information for NSF and
all other federal agencies. However, our review of NSF grants disclosed that one of four
sampled PIs did not accurately report the person-months devoted to all projects/activities as
required by NSF requirements. The PI inappropriately reported no devoted effort for several
NSF and other federal awards. Nevertheless, this was an improvement from our prior audit
results where we found that none of the five sampled PIs had complied with the NSF procedures.

       In conclusion, we believe that Caltech has taken appropriate corrective action to fully
implement all audit recommendations to improve its payroll distribution system. To provide
continued momentum for improvements it has made to date, we suggest that the University



                                                 2
continue with its planned initiatives to develop written desk procedures for its new PI Effort
Commitment System. Also, Caltech should continue to provide frequent employee training to
ensure the knowledge and skills required to promote campus compliance with established
federal, NSF, and University grant management policies and procedures. Consideration should
be given to providing refresher training on the proper completion of the Current and Pending
Support information included in federal grant proposals.

cc:


       Debi Rafi, Director, Indirect Cost Branch, Office of Naval Research




                                               3
Appendix: Background, Scope, and Methodology

Background

       The California Institute of Technology (Caltech) is a small independent, privately funded
university devoted to research and teaching in science and engineering disciplines. The
University is located in Pasadena, California and has approximately 350 professorial and
research faculty members, 550 post-doctoral researchers, 1200 graduate students, and 950
undergraduate students. Although small in size, it is ranked in the top 10 universities worldwide
and has had 31 Nobel laureates.

       Federal grant and contract funding constitutes a major source of Caltech’s annual
revenues. For fiscal year 2009, the University received approximately $325 million in federal
research funds and an additional $33 million from the American Recovery and Reinvestment
Act. Of this amount, NSF provided funding about $145 million and $18 million, respectively.

Scope and Methodology

        To accomplish our audit objective of evaluating the adequacy of Caltech corrective
actions taken to implement recommendations from the March 2007 NSF OIG audit report of its
Payroll Distribution System (OIG 07-01-013), we reviewed all changes in University policies
and procedures and other actions implemented to address the audit recommendations. Interviews
were conducted with Grants Management staff and a
walk-through of the new PI Effort Commitment System was performed to gain an understanding
of the new tracking and reporting system. We selected a judgmental sample of four PIs and
reviewed applicable NSF grants to assess campus compliance with the new process for tracking
and reporting PI effort commitments. A draft of the audit report was provided to Caltech
informally for its review and comment prior to development of the final report.

        We conducted the onsite work for this performance audit from February 22 to 25, 2010,
in accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our conclusions based on our audit
objective.




                                                4
